LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

March 19, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-1029 :

BETHANY AUSTIN V. STATE OF ILLINOIS

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae American Booksellers Association, Association of American Publishers, Inc.,
The Authors Guild, Inc., Comic Book Legal Defense Fund, Freedom To Read
Foundation, Media Coalition Foundation, Inc., and National Press Photographers
Association referenced above contains 4,780 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 19th day of March 2020.

